No. 20-443

In the Supreme Court of the United States
UNITED STATES OF AMERICA, PETITIONER
v.
DZHOKHAR A. TSARNAEV
ON WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FIRST CIRCUIT

REPLY BRIEF FOR THE UNITED STATES

BRIAN H. FLETCHER
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
SupremeCtBriefs@usdoj.gov
(202) 514-2217

TABLE OF CONTENTS

Page
I.

The court of appeals erred in applying an inflexible
voir-dire rule to invalidate the jury’s penalty
verdict ............................................................................... 2
A. The court of appeals’ inflexible voir-dire rule
is legally unfounded ............................................... 3
B. The court of appeals’ inflexible voir-dire rule
is practically unsound ............................................ 6
II. The court of appeals erred in deeming the district
court’s handling of the penalty-phase evidence to
be a basis for vacatur..................................................... 12
A. The district court did not abuse its discretion
in precluding inquiry into the unsolved
Waltham crime ..................................................... 13
B. The Waltham evidence would not have
changed the jury’ penalty verdict ........................19
TABLE OF AUTHORITIES

Cases:
Aldridge v. United States, 283 U.S. 308 (1931) .................... 5
Bank of Nova Scotia v. United States,
487 U.S. 250 (1988)................................................................ 3
Cauthern v. Colson, 736 F.3d 465 (6th Cir. 2013) .......... 14
Eddings v. Oklahoma, 455 U.S. 104 (1982) .................... 12
Franks v. Delaware, 438 U.S. 154 (1978) ....................... 17
Fuller v. Dretke, 161 Fed. Appx. 413 (5th Cir.),
cert. denied, 548 U.S. 936 (2006) .................................. 14
Green v. Georgia, 442 U.S. 95 (1979).............................. 16
Jones v. United States, 527 U.S. 373 (1999) .......................... 4
Mu’Min v. Virginia, 500 U.S. 415 (1991) .................. 3, 4, 5, 6
Ortega-Rodriguez v. United States,
507 U.S. 234 (1993)................................................................ 3

(I)

II
Cases—Continued:

Page

Patriarca v. United States, 402 F.2d 314
(1st Cir. 1986), cert. denied, 393 U.S. 1022 (1969) ............. 2
Reynolds v. United States, 98 U.S. 145 (1879) ..................... 6
Ristaino v. Ross, 424 U.S. 589 (1976) .................................... 4
Sears v. Upton, 561 U.S. 945 (2010) ............................... 16
Shannon v. United States, 512 U.S. 573 (1994) .................... 4
Skilling v. United States, 561 U.S. 358 (2010) ........... passim
United States v. Burr:
25 F. Cas. 49 (C.C.D. Va. 1807) ........................................ 7
25 F. Cas. 55 (C.C.D. Va. 1807) ........................................ 7
United States v. Haldeman,
559 F.2d 31 (D.C. Cir. 1976)............................................. 6, 7
United States v. McVeigh,
153 F.3d 1166 (10th Cir. 1998),
cert. denied, 526 U.S. 1007 (1999) ...........................19, 22
United States v. Payner, 447 U.S. 727 (1980) ................... 3, 4
United States v. Runyon, 994 F.3d 192
(4th Cir. 2021) ............................................................... 20
United States v. Sampson, 486 F.3d 13
(1st Cir. 2007), cert. denied, 553 U.S. 1035 (2008)....... 13
United States v. Williams, 504 U.S. 36 (1992) ..................... 3
Constitution and statutes:
U.S. Const. Amend. XIV, § 1 (Due Process Clause) ...... 16
Federal Death Penalty Act of 1994,
18 U.S.C. 3591 et seq.:
18 U.S.C. 3593(c) ..................................................13, 19
Miscellaneous:
1 David Robertson, Trial of Aaron Burr
for Treason (1875)................................................................. 7

In the Supreme Court of the United States
No. 20-443
UNITED STATES OF AMERICA, PETITIONER
v.
DZHOKHAR A. TSARNAEV
ON WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FIRST CIRCUIT

REPLY BRIEF FOR THE UNITED STATES

Respondent asserts that his “shocking crime”—a
brutal terrorist attack in which he personally placed
and detonated a homemade shrapnel bomb behind a
group of children, murdering an eight-year-old child
and a college student, and severely wounding many
others—“puts law to its severest test.” Br. 1 (citation
omitted). The district court’s fair and careful management of respondent’s trial passed that test, resulting in
an impartial jury that delivered a nuanced verdict recommending capital punishment only for the murders
that respondent personally committed. Respondent’s
criticisms of two out of the hundreds of separate judgment calls required from the court over the course of
this complex case are unwarranted. The district court
acted well within its discretion in assessing the possibility of publicity-based bias for each prospective juror
primarily through individualized voir dire, rather than
rote repetition of questions that would have produced
(1)

2
unhelpful or unmanageable answers—and could even
have been counterproductive. The court likewise acted
well within its discretion in declining to sidetrack the
penalty phase with an investigation into irredeemably
unreliable evidence about the role that respondent’s
brother might have played in a dissimilar crime two
years earlier—evidence that had little if any bearing on
respondent’s own culpability for the Boston Marathon
bombing. This Court should reverse.
I. THE COURT OF APPEALS ERRED IN APPLYING AN
INFLEXIBLE VOIR-DIRE RULE TO INVALIDATE THE
JURY’S PENALTY VERDICT

Only at the end of his brief (Br. 38-53) does respondent defend the court of appeals’ primary rationale for
undoing the years of effort that went into this case—
namely, the court’s disapproval of the district court’s
conscientious jury-selection process. See, e.g., Pet. App.
64a. The “key” to that disapproval, id. at 49a, was the
court of appeals’ half-century-old decision in Patriarca
v. United States, 402 F.2d 314 (1st Cir. 1968), cert. denied, 393 U.S. 1022 (1969), which it read for the first
time as setting forth a wooden supervisory rule that
mandated additional questions to each prospective juror about the content of the pretrial publicity that he or
she had seen. See Gov’t Br. 34. Respondent asserts (Br.
39) that the “Patriarca rule” is “eminently reasonable.”
But “reasonableness” is not a valid basis for a supervisory rule that would displace this Court’s precedent
identifying the trial court as the principal manager of
jury selection. And even if it were, the inflexible Patriarca rule is not reasonable. The experienced district
judge assigned to this case went to extraordinary
lengths—including a 21-day voir dire that the court of
appeals found laudable at the time—to enable selection

3
of an impartial jury, which included no members who
had formed an opinion on the appropriate punishment
and which returned a discerning penalty verdict. That
verdict should stand.
A. The Court Of Appeals’ Inflexible Voir-Dire Rule Is
Legally Unfounded

Respondent recognizes (Br. 49) that district courts
are entitled to especially broad latitude over voir dire
“[w]hen pretrial publicity is at issue.” Skilling v. United
States, 561 U.S. 358, 386 (2010); see Gov’t Br. 22-24.
And he acknowledges (Br. 42) that questions “about the
specific contents of the news reports to which [prospective jurors] had been exposed” are not constitutionally
required, even in highly publicized cases. Mu’Min v.
Virginia, 500 U.S. 415, 417 (1991); see Gov’t Br. 23-24.
Neither respondent’s nor the court of appeals’ view that
invariantly asking such questions is nevertheless “reasonable” (Br. 39) is a permissible ground for dispensing
with the legal system’s “ ‘primary reliance on the judgment of the trial court’ ” to determine the “measures
necessary to ensure [ juror] impartiality” in the circumstances of a particular case. Skilling, 561 U.S. at 386387 (quoting Mu’Min, 500 U.S. at 427).
The supervisory power does not entitle federal
courts to make rules with the freedom of legislatures.
Instead, this Court has stressed the need for “restrained application of the supervisory power.” United
States v. Payner, 447 U.S. 727, 735 (1980). Such restraint is particularly warranted when courts invoke the
supervisory power not merely “to control their own procedures,” United States v. Williams, 504 U.S. 36, 45
(1992), but to dictate requirements to other courts. See
Ortega-Rodriguez v. United States, 507 U.S. 234, 246
(1993); Bank of Nova Scotia v. United States, 487 U.S.

4
250, 264 (1988) (Scalia, J., concurring). This Court has
also shown particular skepticism toward supervisory
rules that supplant the traditional exercise of judicial
discretion with bright-line mandates. See, e.g., Jones v.
United States, 527 U.S. 373, 383 (1999); Shannon v.
United States, 512 U.S. 573, 584-587 (1994). And few
matters are as “ ‘particularly within the province of the
trial judge,’ ” and as resistant to appellate “secondguessing,” as jury selection in high-profile (and other)
cases. Skilling, 561 U.S. at 386 (quoting Ristaino v.
Ross, 424 U.S. 589, 594-595 (1976)).
The Patriarca rule also transgresses the prohibition
made clear in United States v. Payner against crafting
supervisory rules that are out of step with this Court’s
own reasoning on an analogous constitutional issue. See
447 U.S. at 731; Gov’t Br. 31-32. In both Mu’min v. Virginia, which rejected a constitutional rule of the sort
that the Patriarca rule imposes, and other decisions,
this Court has made clear that “[n]o hard-and-fast formula dictates the necessary depth or breadth of voir
dire”—especially in addressing pretrial publicity. Skilling, 561 U.S. at 386; see Mu’Min, 500 U.S. at 417, 427.
Respondent nevertheless suggests (Br. 42) that Mu’Min,
in noting some circuits’ reliance on the supervisory
power to address jury selection in high-profile cases,
“left the door open” for supervisory rules like the
Patriarca rule. But that suggestion fails to account for
Mu’Min’s recognition that even circuits that had required publicity-content questions in high-profile cases
had done so only “in some circumstances”; Mu’Min’s
observation that other circuits had eschewed that approach; and—most importantly—Mu’Min’s own superseding logic. 500 U.S. at 426. In particular, Mu’Min’s
explanation that this Court’s “own cases” have

5
“stressed the wide discretion granted to the trial court
in conducting voir dire in the area of pretrial publicity,”
id. at 427; see Skilling, 561 U.S. at 386-387 (similar), is
fundamentally inconsistent with the rigid Patriarca
rule.
Respondent tries (Br. 48) to salvage the Patriarca
rule on the theory that Payner’s admonishment against
back-door supervisory rules is limited to the evidencesuppression context. But he identifies nothing in this
Court’s jurisprudence that would allow courts of appeals to freely substitute their own views for this
Court’s—and district courts’—in the context of publicity questioning. Respondent’s only putative basis for
distinguishing Payner consists of decisions in which
this Court has itself invoked the supervisory power to
require an inquiry into prospective jurors’ racial prejudice in certain cases where the Constitution would
not require one. But those decisions cannot support a
supervisory-power end-around by a court of appeals.
Moreover, those decisions address only whether a
potential source of impermissible bias must be explored
at all. The Court has remained “careful not to specify
the particulars by which” courts would address potential racial bias, Mu’Min, 500 U.S. at 431 (citation omitted), and its precedents suggest that a single generalized question may suffice, see, e.g., Aldridge v. United
States, 283 U.S. 308, 311-314 & nn.1, 3 (1931). Here, in
contrast, the issue is not whether to ask about potential
bias from pretrial publicity, but instead the appropriate
form and scope of such questioning in a specific case.
The inflexible Patriarca rule fails to accord the “respect
due to district-court determinations” on that subsidiary
matter of case management. Skilling, 561 U.S. at 387.
Instead, as with the constitutional rule rejected in

6
Mu’Min, the Patriarca rule would require “more in the
way of voir dire with respect to pretrial publicity than”
this Court has required, even in the supervisory context, “with respect to racial or ethnic prejudice.” 500
U.S. at 424.
Respondent notes (Br. 43) that the district court in
Skilling v. United States asked a question similar to the
one the court of appeals required here. But nothing in
this Court’s passing mention of that fact, 561 U.S. at
374, suggested that such a question is invariably required. And such a requirement would be difficult to
square with the first major pretrial-publicity case to
come before this Court, Reynolds v. United States,
98 U.S. 145 (1879), in which the Court upheld a conviction where prospective jurors had simply been asked,
subject to follow up, whether they had “formed or
expressed an opinion as to the guilt or innocence” of the
defendant based on exposure to information before
trial. Id. at 146-147; see id. at 155-157. The district
court’s process here was significantly more extensive
and well within its case-specific discretion.
B. The Court Of Appeals’ Inflexible Voir-Dire Rule Is
Practically Unsound

Even if the supervisory power allowed courts of appeals to enact “reasonable” blanket rules to superintend
district courts’ management of voir dire (Resp. Br. 39),
the Patriarca rule would not be such a rule.
1. While content questioning in accord with that rule
may be helpful in some cases involving substantial pretrial publicity, a fair and just verdict does not necessarily require it. Courts can conduct an effective voir
dire in high-profile trials without asking for an accounting of what each prospective juror has seen. See United
States v. Haldeman, 559 F.2d 31, 67-68 (D.C. Cir. 1976)

7
(en banc) (per curiam) (explaining that such questions
“would have been unreasonable in the circumstances”
of a Watergate-related trial).
The mandatory questioning imposed by the court of
appeals has been found unnecessary or unproductive
not only for trials involving modern political scandals,
see Haldeman, 559 F.2d at 65-70, but also one of the
oldest high-profile cases on record. Although respondent notes (Br. 40-42) a couple of Chief Justice Marshall’s
general observations in the high-profile treason trial of
former Vice President Aaron Burr, those observations
did not lead the Chief Justice to ask the sort of specific
content questions that respondent demands here. For
the grand jurors, Chief Justice Marshall instead asked,
subject to follow-up questions, “have you made up your
mind on the case, or on the guilt of Colonel Burr, from
the statements you have seen in the papers or otherwise?” United States v. Burr, 25 F. Cas. 55, 58 (C.C.D.
Va. 1807); see United States v. Burr, 25 F. Cas. 49, 52
(C.C.D. Va. 1807) (Marshall, C.J.) (explaining that a
similar question was asked to petit jurors); see also
1 David Robertson, Trial of Aaron Burr for Treason
404-482 (1875) (report of jury selection).
2. Neither Chief Justice Marshall’s approach nor
the district judge’s similar approach here should be rejected as legal error based on a supervisory rule like the
one that the court of appeals imposed. Respondent insists (Br. 44) that the “circumstances of this case underscore” the “wisdom” of the Patriarca rule, but he identifies no sound reason why that is so, let alone why a
completely new penalty proceeding should be required.
Both respondent and the court of appeals recognized
the impropriety of a voir-dire rule so unyielding that
it would require vacatur of the guilt-phase verdict

8
here. Instead, both acknowledged that, in light of respondent’s “trial concession * * * that he had done
what the government accused him of doing,” the Patriarca rule should not disturb his convictions. Pet. App.
60a; see id. at 61a n.33. But the court of appeals showed
no similar context-sensitivity when it vacated the
penalty-phase verdict. The jury’s nuanced assessment
that capital punishment was warranted on exactly 6 of
17 possible counts shows a conscientious jury, with an
open mind about the evidence and arguments bearing
on the penalty, rather than a jury predisposed to recommend a death sentence.
Respondent fails to show that the district court
abused its considerable case-management discretion,
see Skilling, 561 U.S. at 386-387, in crafting and implementing tailored jury-selection procedures to identify
penalty-phase bias. This case unquestionably involved
extensive pretrial publicity. But respondent’s assertion
that the pretrial coverage of his crimes “was not largely
accurate or factual,” Br. 44, contradicts the court of appeals’ own determination that the coverage was “largely
factual and [that] the untrue stuff was no more inflammatory than the evidence presented at trial.” Pet. App.
47a. Respondent’s efforts (Br. 7, 44-46, 51) to convey a
different impression, by highlighting publications that
he deems particularly prejudicial, are misguided. Many
of the articles that he mentions (e.g., those discussing
his immigration status or the funding of the attack)
have at best a tenuous connection to the appropriate
penalty. And while the media reported that some members of the community supported a capital sentence (including the Boston mayor and the mother of one bombing victim), see Resp. Br. 7, the media also reported that
many did not. See Gov’t Br. 37 (Archbishop of Boston,

9
Boston Globe editorial board, and 57% of Massachusetts
residents); C.A. App. 11,047-11,048 (Boston Bar Association, American Civil Liberties Union of Massachusetts, and volunteer who treated the wounded at the
marathon); D. Ct. Doc. 461-3, at 1653-1655 (Aug. 7,
2014) (Massachusetts state legislators).
Respondent also inappropriately discounts the extensive measures that the district court took to address
concerns about pretrial publicity. Contrary to his assertion that prospective jurors were unaware that pretrial publicity “should be disregarded,” Br. 47, the court
expressly told each panel of prospective jurors that they
must “base a decision on the evidence presented in
court” and “not * * * anything [they had] seen, heard,
read or experienced outside the courtroom[,] including
anything [they thought they had] previously learned
from, say, reports in the media.” J.A. 283. The court
then reminded each prospective juror of that responsibility during individual voir dire, e.g., J.A. 285, 296, 306,
and repeated the admonition throughout the proceedings, e.g., C.A. App. 6977 (“As I’ve said on many occasions, you must completely disregard any reports you
may have read in the press, seen on television, heard on
the radio or viewed online.”); id. at 8696 (“[Y]ou are not
to be influenced by speculation concerning what sentence you think anyone else, including victims’ families,
might wish to see imposed on the defendant.”).
The district court also questioned prospective jurors
at length about pretrial publicity during the 21-day voir
dire, asking virtually all of them (including all seated
jurors) to expand on their answers to the questionnaire
inquiry about media exposure—and allowing counsel
for both parties to do the same. See Gov’t Br. 26-28;
J.A. 284-471. Although respondent briefly disputes (Br.

10
52 n.14) that his counsel had “latitude” to ask follow-up
questions about pretrial publicity, that was his own
counsel’s characterization during voir dire. J.A. 501;
C.A. App. 1143. And the court’s tailored approach,
which prompted it to strike multiple prospective jurors
for cause, allowed selection of a jury that contained no
members who had formed an opinion about the appropriate punishment. See Gov’t Br. 27; C.A. App. 1887,
2271, 2703. Indeed, the court of appeals observed at
the time that the “thorough” voir dire had produced
provisionally qualified jurors “capable of providing [respondent] with a fair trial.” Pet. App. 240a. That observation remained just as true post-trial, when it had
been confirmed by the jury’s careful verdict.
3. Respondent asserts (Br. 38) that asking his proposed question to all prospective jurors would have
been “costless.” But as the district court explained—
and as the government recognized after initially agreeing to standardized content questioning—asking all
prospective jurors an “unfocused” question about what
they had “read or heard” about the Boston Marathon
bombing would produce “unmanageable data.” J.A.
473, 480-481, 489. That would be particularly so if, as
respondent now appears to suppose (Br. 46, 53), the
question would have also required expounding on the
content of any social media. Whatever the possible benefits of such a question in cases where different jurors
might have been exposed to significantly different segments of coverage, cf. Skilling, 561 U.S. at 391 & n.28,
the district court could reasonably decide that it was not
warranted in this case, where the main sources of publicity were common to nearly everyone in the jury pool
(and nearly every informed citizen in the Nation). See
Gov’t Br. 35.

11
In addition, the district court reasonably determined
that making prospective jurors revisit the details of
media coverage from years earlier would “be counterproductive actually rather than helpful,” because it
“places the wrong emphasis” and “misdirects” jurors to
the very subject that the law compels them to avoid.
J.A. 498, 502. That problem would perhaps be even
more acute if the question asked only for the “most
memorable things” that the prospective juror had seen
or heard. Resp. Br. 50 (citation omitted). As respondent’s own counsel recognized, J.A. 480, most prospective
jurors would likely have identified the same things—e.g.,
the bombing aftermath at the marathon site, the manhunt, and respondent’s capture—and the district court
could reasonably determine that discussing them was
far more likely to be prejudicial than probative. Experience bears that out: of the prospective jurors who
were asked questions that would apparently satisfy respondent (Br. 52 n.14), one (a seated juror) mentioned
only the image of the finish line and did not even recall
respondent’s name, J.A. 331-332; others similarly mentioned undisputed basic facts, such as the boat capture,
J.A. 506, 512, 529; and others recalled no particular media coverage at all, J.A. 507, 515, 518, 523-524.
4. Selecting a fair and impartial jury for the trial of
the most notorious domestic terrorist in recent American history was uniquely challenging. As the court of
appeals recognized during that process, the district
court took “ample time to carefully differentiate between those individual jurors who have been exposed to
publicity but are able to put that exposure aside and
those who have developed an opinion they cannot put
aside.” Pet. App. 253a; see id. at 250a (describing “the
entire voir dire conducted to this point” as “thorough

12
and appropriately calibrated to expose bias, ignorance,
and prevarication”). Perhaps another judge might have
added weeks to the 21-day voir dire by attempting a
detailed excavation of the content of each prospective
juror’s individual media consumption. But even if so,
that does not entitle a court of appeals to second-guess
this district judge’s reasonable judgment calls. See
Skilling, 561 U.S. at 386-387.
Any suggestion that such additional questioning—
itself potentially prejudicial—would increase confidence in the impartiality of the penalty-phase verdict is
speculative at best. As the district court aptly summarized, “this was not a jury impelled by gross prejudice
or even reductive simplicity, but rather a group of intelligent, conscientious citizens doing their solemn duty,
however reluctantly.” Pet. App. 329a. Its efforts, and
the efforts of the district court to select it, should not be
set aside based on an inflexible and unsupported appellate dictate about the conduct of voir dire.
II. THE COURT OF APPEALS ERRED IN DEEMING THE
DISTRICT COURT’S HANDLING OF THE PENALTYPHASE EVIDENCE TO BE A BASIS FOR VACATUR

The court of appeals’ secondary rationale for invalidating the penalty verdict, which respondent relies on
as his primary argument (Br. 14-38), is no more justifiable. The district court did not abuse its discretion by
declining to allow respondent to divert the penalty
phase of his trial—which “concern[ed] his character,
record, and offense,” Resp. Br. 17 (emphasis added); see
Eddings v. Oklahoma, 455 U.S. 104, 110 (1982)—into an
unresolvable investigation of his brother Tamerlan’s
role in a dissimilar crime two years earlier. See Gov’t
Br. 39-45. And even if the district court had allowed a
minitrial on that subject, it would not have changed the

13
jury’s recommendation of capital punishment for the
murders that respondent personally committed. Id. at
45-47. None of respondent’s arguments shows otherwise.
A. The District Court Did Not Abuse Its Discretion In
Precluding Inquiry Into The Unsolved Waltham Crime

The Federal Death Penalty Act generally dispenses
with the rules of evidence for the penalty phase of a federal capital trial, “except that information may be excluded if its probative value is outweighed by the danger of creating unfair prejudice, confusing the issues, or
misleading the jury.” 18 U.S.C. 3593(c). The district
court reasonably relied on that provision to keep respondent’s penalty-phase proceeding focused on his
own culpability for the Boston Marathon bombing, as
opposed to whether or how Tamerlan might have been
involved in the robbery and murder of three drug dealers two years before. Respondent recognizes (Br. 16)
that the statute “implements th[e] constitutional requirements” for the admission of mitigating evidence.
He does not question the deferential standard of review
for a district court’s evidentiary rulings. And he does
not come close to showing that the district court’s
assessment of the statutory factors here was so “plainly
incorrect” as to constitute an “abuse of discretion.”
United States v. Sampson, 486 F.3d 13, 42 (1st Cir.
2007), cert. denied, 553 U.S. 1035 (2008). To the contrary, respondent’s brief in this Court relies heavily on
mitigation theories different from the ones at issue below.
1. As an initial matter, the district court reasonably
found that evidence about Tamerlan’s possible participation in the Waltham crime would have added little, if
anything, to the jury’s consideration of the appropriateness of capital punishment for respondent’s own murders in the marathon bombing. See Gov’t Br. 40-42.

14
To the extent respondent suggests (Br. 25, 31) that a
co-defendant’s criminal history is always admissible, he
fails to show that the sole fact of partnership with someone whose prior history is even more reprehensible is
an appropriate ground for mitigation. Indeed, inviting
such an inappropriate general comparison, through a
digression into a co-defendant’s different potential
crime, is itself the sort of unwarranted issue-confusion
that the Act properly allows a district court to avoid. Cf.
Cauthern v. Colson, 736 F.3d 465, 488 (6th Cir. 2013)
(finding that “a reasonable juror would not have concluded” that evidence that co-defendant was suspected
of an unrelated and unsolved rape and murder “had any
bearing on [the defendant’s] relative culpability”);
Fuller v. Dretke, 161 Fed. Appx. 413, 415-416 (5th Cir.)
(recognizing that evidence of co-defendant’s “propensity to violence” had “little, if any, relevance to [defendant’s] character and background”), cert. denied, 548
U.S. 936 (2006).
Respondent contends (Br. 21-23) that he could have
used the Waltham evidence to support his assertions
that Tamerlan “radicalized first” and that respondent
was “susceptible to Tamerlan’s influence” because of
their “deep filial ties.” But the government did not dispute that Tamerlan radicalized first, see J.A. 873-874,
and any marginal relevance of the Waltham evidence to
show the circumstances of respondent’s own radicalization, or his loyalty to Tamerlan, was negligible at best.
The centerpiece of the evidence that respondent sought
to introduce—Ibragim Todashev’s story of a financially
motivated crime, committed by two people who were not
relatives—would have shed no meaningful light on
either subject. Nor would respondent’s putative state-

15
ment to his friend Dias Kadyrbayev that Tamerlan committed “jihad” in Waltham. J.A. 583-584. Respondent’s
apparent expression of admiration for jihad simply
illustrated his own radicalization by that time. It would
not support the daunting inferential leaps through
which respondent seeks (Br. 22-23) to characterize the
Waltham crime as a reason why he became radicalized
or felt particularly loyal to his brother.
Respondent also asserts that he could have used the
Waltham evidence to support his theory that “Tamerlan
was the leader” of the marathon bombings, because
Tamerlan “had previously committed violent jihad.” Br.
23-24 (emphasis omitted). As just noted, however, Todashev’s account portrayed the Waltham crime as financially, not religiously, motivated. See J.A. 941. And
even to the extent that a single article on Tamerlan’s
computer (see Resp. Br. 21) or Kadyrbayev’s possible
hearsay testimony about respondent’s unexplained assertion (see Br. 20-21) might have indicated otherwise,
the crimes remained extremely dissimilar. Even if the
robbery was to support jihad (Br. 21), the robbers were
careful to cover their tracks—indeed, that was the
asserted reason for the murders. See J.A. 947. Participation in such a crime, behind closed doors, would not
meaningfully indicate that Tamerlan alone masterminded the ambitious public spectacle of constructing
and detonating homemade bombs to kill and injure innocent people at the finish line of the Boston Marathon.
2. Whatever slight probative value the Walthamrelated evidence might have had was diminished further
by its fundamental unreliability, which likewise underpinned the district court’s reasonable determination
that any probativeness was outweighed by the risk of
confusion, misdirection, or unfair prejudice. This was

16
not like evidence of a defendant’s own past crimes
(Resp. Br. 32), which is probative because it bears
directly on the defendant’s individual history and character. Nor was it like evidence of Tamerlan’s general
aggressive nature (Resp. Br. 18) that, probative or not,
could be introduced through relatively simple livewitness testimony to which the government did not
object. Instead, the proposed Waltham evidence would
have invited the jury down a rabbit hole to examine the
details of Todashev’s claims, all of which had little, if
any, legitimate utility to its consideration of respondent’s own history, character, and culpability for killing
and injuring marathon spectators with a homemade
shrapnel bomb.
Respondent acknowledges (Br. 16-17, 30) that he was
not entitled to introduce the Waltham-related evidence
unless it was sufficiently “reliable.” See Green v. Georgia, 442 U.S. 95, 97 (1979) (per curiam) (requiring admission of hearsay mitigating evidence under Due Process Clause only where “substantial reasons existed to
assume its reliability” and it “was highly relevant to a
critical issue in the punishment phase”); see also Sears
v. Upton, 561 U.S. 945, 950 n.6 (2010) (per curiam) (citing Green). But Todashev’s self-serving tale, with no
possibility of direct or cross examination, and Kadyrbayev’s proffer fell far short of that threshold. The district court did not find “any evidence that would permit
a neutral finder of fact” to determine “what participation Tamerlan may have had” in the Waltham crime.
J.A. 650. Todashev had an obvious incentive to lie; his
conduct following the Waltham crime was far more suspicious than Tamerlan’s; and he suicidally attacked
officers in the midst of documenting his story, see Gov’t
Br. 41-42, all of which made it impossible—as the dis-

17
trict court found, J.A. 650—to determine who might
have done what. And testimony from Kadyrbayev
about respondent’s Waltham-related statement would
not have made sense to the jury without the Todashev
evidence (indeed, respondent has never sought to introduce the Kadyrbayev statement by itself); did not align
with Todashev’s account of the crime’s motivation; and
did not provide any way to explore a crime whose alleged perpetrators and victims were all deceased.
Respondent errs in asserting (Br. 27) that the government effectively conceded that Todashev’s story was
fit for the jury by “vouch[ing] for the reliability of Todashev’s statements” in seeking a search warrant for
Tamerlan’s car in furtherance of law enforcement’s
investigation into the Waltham crime. The FBI special
agent’s affidavit treated those statements as sufficient
for “probable cause to believe that Todashev and [Tamerlan] planned and carried out the murder,” J.A. 996,
but did not purport to take any position on whether a
juror could ultimately rely on Todashev’s veracity to
evaluate Tamerlan’s actions or character—let alone respondent’s. Respondent does not directly address this
Court’s commonsense recognition in Franks v. Delaware, 438 U.S. 154 (1978), that a warrant affiant is not
representing “that every fact recited in the warrant affidavit is necessarily correct.” Id. at 165. Although the
“information put forth is believed or appropriately
accepted by the affiant as true” for the purpose of
assessing probable cause for a search, ibid., respondent
identifies no authority for imposing a form of estoppel
on prosecutors in the very different context of a
penalty-phase trial as the price of an agent pursuing an
investigative lead.

18
In any event, while the affidavit summarized some of
Todashev’s self-serving assertions, J.A. 998-999, it did
not endorse—let alone add any independent credibility
to—any of the particulars of Todashev’s story. The
affidavit thus did nothing to ameliorate the insuperable
reliability problems with any of the mitigation theories
identified by the court of appeals—namely, that Tamerlan “had previously instigated, planned, and led brutal
attacks” (which the affidavit did not itself claim); that
Tamerlan had “justified [them] as jihad” (which Todashev did not claim); and that Tamerlan “had influenced
a less culpable person (Todashev) to participate in murder” (which Todashev denied). Pet. App. 79a.
Respondent now argues (Br. 32) in this Court that
the jury need not have considered “exactly who did what
in the Waltham apartment,” because he sought “to establish only that Tamerlan played a significant role in
the murders and [respondent] knew about it.” But that
is a sharp departure from the theories in the lower
courts, and the court of appeals’ own rationale on this
issue, which focused heavily on the particular details of
Todashev’s claims about the Waltham crime. See Pet.
App. 67a-68a (describing “key details about the murders (as disclosed by Todashev)”); id. at 69a, 72a, 75a79a (accepting as probative respondent’s mitigation argument based on “Tamerlan’s lead role in the Waltham
killings”); J.A. 642, 668-669 (respondent seeking to introduce “[e]vidence that Tamerlan planned and committed the Waltham murders”); J.A. 650 (district court
finding details of the Waltham crime unreliable).
3. Instead of respecting the district court’s wellreasoned evidentiary determinations, the court of appeals required the admission of Waltham evidence on a
rationale that would have involved “ ‘sidetrack[ing] the

19
jury’ into resolving tangential ‘factual disputes’ ”—a
concern that even respondent recognizes as a proper
basis for exclusion. Br. 31 (quoting United States v.
McVeigh, 153 F.3d 1166, 1191 (10th Cir. 1998), cert. denied, 526 U.S. 1007 (1999)). Respondent contends (Br.
31) that the district court could have addressed that
concern “by regulating the manner of presentation.”
But like the court of appeals, respondent fails to describe a workable way for the district court to have done
that.
Respondent asserts (Br. 32) that he “could have relied solely on” (1) “the Todashev statements [described]
in the search warrant affidavit”; (2) “Kadyrbayev’s testimony or proffer”; and (3) “corroborating documentary
evidence.” He did not, however, make that specific proposal to the district court. See J.A. 642-643. And even
if he had, the government would have been entitled to
introduce additional details that would undermine
Todashev’s story—such as Todashev’s indication of a
financial motivation for the Waltham crime, Todashev’s
claim that he was able to opt out of committing murder,
and evidence that Todashev may well have committed
the murders himself. See 18 U.S.C. 3593(c) (“The government and the defendant shall be permitted to rebut
any information received at the [penalty-phase] hearing.”). The district court thus reasonably found no hope
that the jury could figure out what might (or might not)
have occurred, and reasonably exercised its discretion
in deciding not to divert the jury by sending it down
such an uncertain and unproductive path.
B. The Waltham Evidence Would Not Have Changed The
Jury’s Penalty Verdict

Even assuming that the district court lacked the discretion to make that circumstance-specific judgment,

20
the exclusion of the Waltham evidence was harmless
beyond a reasonable doubt. See Gov’t Br. 45-47.
1. Respondent asserts (Br. 33) that the Waltham evidence “was the difference between a compelling mitigation case and a weak one.” But as his own brief
demonstrates, the district court gave respondent wide
latitude to present his mitigation arguments to the jury.
Respondent argued at length about Tamerlan’s influence on him, and he was able to introduce direct evidence of their relationship, including that respondent
“had idolized Tamerlan since childhood”; that respondent sometimes followed Tamerlan “ ‘like a puppy’ ”; that
“Tamerlan was the only adult family member left in [respondent’s] life” by 2012; that “kinship bonds and hierarchical respect ran deep” in respondent’s “Chechen
family”; and that Tamerlan was the one who “began indoctrinating” respondent. Resp. Br. 4, 33-34 (citation
omitted); see J.A. 746, 749, 752, 825, 831-833, 836; C.A.
App. 7745. Respondent likewise presented direct evidence that Tamerlan “was the leader in the bombings,”
Br. 34, including evidence that Tamerlan had “searched
online for the Boston Marathon,” J.A. 246, and purchased the pressure cookers, BBs, and radio transmitters for the bombs, e.g., C.A. App. 6261-6263, 6277-6285.
All of that direct evidence would have been far more
important to the jury for assessing the brothers’ relative culpability for the bombing than any invitation to
follow an extended chain of speculative inferences from
an unsolved Waltham crime. Yet even such direct evidence of Tamerlan’s influence and leadership did not
persuade the jury to excuse respondent from culpability
for the murders that he personally committed. Cf.
United States v. Runyon, 994 F.3d 192, 210 (4th Cir.
2021) (“Given the willingness of the jury to recommend

21
death in the face of all of these mitigating factors, there
is no reasonable probability that a more detailed understanding of [co-defendant’s] criminal history would
have made a difference.”).
2. The jury’s penalty verdict is not, as respondent
suggests (Br. 34-36), the result of the government “misleading” the jury in the absence of Waltham-related evidence. It instead reflects the straightforward and fundamental point, which the Waltham evidence would not
have meaningfully undercut, that no matter what Tamerlan did years earlier in Waltham, respondent’s deliberate decision to bomb the Boston Marathon warranted
capital punishment because his own personal acts were
horrific, inexcusable, and the product of his own embrace of terrorist ideology—as described in his personal
boat manifesto. See J.A. 871-874; see also Gov’t Br. 6.
Respondent asserts (Br. 19) that the government
“exploit[ed] the Waltham evidence’s exclusion by arguing that Tamerlan was incapable of acting without” him.
But the portion of the closing argument that he cites
was not a discussion of Tamerlan’s general capacity for
jihad, but instead how he and respondent “committed
these crimes”—the marathon bombing. J.A. 873 (emphasis added). The government acknowledged that
Tamerlan “was ready to commit violent jihad” before
respondent, but observed that Tamerlan had unsuccessfully looked elsewhere for a “partner” and was “able to
go into action” once respondent “made the decision to
become a terrorist.” J.A. 873-874. As the government’s
immediately following discussion made clear, that “action” was the marathon bombing. The government explained that respondent played a critical role in that
crime by, among other things, “obtain[ing] a gun and
ammunition, a crucial ingredient in their plans,” and

22
“cho[osing] on his own where to place his bomb for maximum effect” before “call[ing] Tamerlan to give him the
go-ahead” to detonate. J.A. 874.
Todashev’s story of Tamerlan’s offer to split the proceeds of the Waltham robbery, followed by an unplanned
murder that Todashev opted out of committing, did not
suggest that respondent was intimidated or impelled to
place and detonate that bomb. And Kadyrbayev’s proffer of respondent’s putative statement admiring a Waltham “jihad”—testimony that Kadyrbayev offered to
the prosecution—would have made respondent appear
even more incorrigible. See Gov’t Br. 42. Nothing suggested that respondent feared physical injury (let alone
fratricide) if he declined to bomb civilians, or that Tamerlan otherwise commanded his obeisance in carrying
out the bombing. At the most basic level, respondent
made the choice to commit a terrorist attack against
children and other innocent spectators at the marathon,
and the jury held him accountable for that choice.
3. Respondent observes (Br. 36-37) that some other
defendants who committed grievous capital crimes have
received life sentences. But nothing about the Waltham
evidence would have meaningfully likened respondent
to (for example) Terry Nichols, who aided a horrendous
crime but did not himself personally carry it out. See
McVeigh, 153 F.3d at 1177-1178. The substance of the
jury’s split verdict here was clear: whatever else might
be said about Tamerlan’s influence, role, or culpability,
the jury found that respondent was himself responsible
for killing two people and maiming many others with his
own bomb, in service of his own jihadist beliefs. And the
jury accordingly authorized a capital sentence for those
exceptionally cruel and shocking acts. Its lawful verdict
should not be disturbed.

23
* * * * *
For the foregoing reasons and those stated in the
government’s opening brief, the judgment of the court
of appeals should be reversed.
Respectfully submitted.
BRIAN H. FLETCHER
Acting Solicitor General

SEPTEMBER 2021

